                Department of Veterans Affairs
                Office of Inspector General


                  Office of Healthcare Inspections

Report No. 13-00894-216




    Combined Assessment Program 

           Review of the 

      VA Manila Outpatient Clinic 

         Manila, Philippines 





June 18, 2013

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
                                               CAP Review of the VA Manila Outpatient Clinic, Manila, PI



                                              Glossary
                 C&P            credentialing and privileging
                 CAP            Combined Assessment Program
                 CLC            community living center
                 CS             controlled substances
                 EHR            electronic health record
                 EOC            environment of care
                 facility       VA Manila Outpatient Clinic
                 FY             fiscal year
                 NA             not applicable
                 NC             noncompliant
                 OIG            Office of Inspector General
                 QM             quality management
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network
                 WH             women’s health




VA OIG Office of Healthcare Inspections
                                                           CAP Review of the VA Manila Outpatient Clinic, Manila, PI



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objective and Scope ..................................................................................................             1

  Objective .................................................................................................................      1

  Scope......................................................................................................................      1


Reported Accomplishments......................................................................................                     2


Results and Recommendations ................................................................................                       3

  QM ..........................................................................................................................    3

  EOC ........................................................................................................................     5

  Medication Management – CS Inspections .............................................................                             7

  Continuity of Care ...................................................................................................           8

  Emergency Management ........................................................................................                    9

  Suicide Prevention ..................................................................................................           10

  WH..........................................................................................................................    11

  Vaccinations ...........................................................................................................        12

  Diabetic Foot Care ..................................................................................................           13

  Management of Test Results ..................................................................................                   14

  C&P ........................................................................................................................    15

  Management of Workplace Violence ......................................................................                         16


Appendixes
  A. Facility Profile ....................................................................................................        17

  B. VISN Director Comments ..................................................................................                    18

  C. Acting Facility Director Comments ....................................................................                       19

  D. OIG Contact and Staff Acknowledgments .........................................................                              25

  E. Report Distribution .............................................................................................            26

  F. Endnotes ...........................................................................................................         27





VA OIG Office of Healthcare Inspections
                                          CAP Review of the VA Manila Outpatient Clinic, Manila, PI



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
April 8, 2013.

Review Results: The review covered 12 activities. We made no recommendations
in the following four activities:

   Continuity of Care

   Emergency Management

   Women’s Health

   Credentialing and Privileging

The facility’s reported accomplishments were improved pharmacy processing, improved
beneficiary travel claim processing, and improved access and coordination.

Recommendations: We made recommendations in the following eight activities:
Quality Management: Initiate monitoring of the copy and paste function. Ensure the
Peer Review Committee meets at least quarterly or require a notation to be made if
there are no cases to discuss for the quarter.

Environment of Care: Require Environment of Care and Infection Prevention/Control
Committee minutes to reflect that actions taken in response to identified deficiencies are
tracked to closure. Ensure laboratory specimens are transported in a secure manner,
and conduct infection prevention risk assessments and monthly fire extinguisher
inspections.

Medication Management – Controlled Substances Inspections: Ensure inspectors verify
hard copy prescriptions for 10 percent of the schedule II drugs dispensed in the
outpatient pharmacy, and monitor compliance.

Suicide Prevention: Ensure patients at high risk for suicide and/or their families receive
a copy of the safety plan.

Vaccinations: Ensure clinicians administer tetanus vaccinations when indicated.

Diabetic Foot Care: Develop and implement a policy related to screening and referral for
at-risk diabetic patients. Ensure that diabetic patients receive annual risk assessments
with risk level scores and that the assessments are documented in the electronic health
records. Require that diabetic patients at moderate or high risk receive foot exams at
each routine primary care visit.


VA OIG Office of Healthcare Inspections                                                           i
                                          CAP Review of the VA Manila Outpatient Clinic, Manila, PI


Management of Test Results: Consistently notify patients of critical/abnormal test
results, and document notification in the electronic health records.

Management of Workplace Violence: Ensure debriefings occur after incidents of
disruptive or violent behavior.

Comments
The Veterans Integrated Service Network Director and Acting Facility Director agreed
with the Combined Assessment Program review findings and recommendations and
provided acceptable improvement plans. (See Appendixes B and C, pages 18–24, for
the full text of the Directors’ comments.) We will follow up on the planned actions until
they are completed.




                                                         JOHN D. DAIGH, JR., M.D. 

                                                        Assistant Inspector General for 

                                                           Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                           ii
                                          CAP Review of the VA Manila Outpatient Clinic, Manila, PI



                               Objective and Scope 

Objective
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objective of the CAP review is to
conduct recurring evaluations of selected health care facility operations, focusing on
patient care quality and the EOC.

Scope
We reviewed selected clinical and administrative activities to evaluate compliance with
requirements related to patient care quality and the EOC. In performing the review, we
inspected selected areas, conversed with managers and employees, and reviewed
clinical and administrative records. The review covered the following 12 activities:

      QM

      EOC

      Medication Management – CS Inspections

      Continuity of Care

      Emergency Management

      Suicide Prevention

      WH

      Vaccinations

      Diabetic Foot Care

      Management of Test Results

      C&P

      Management of Workplace Violence

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2012 and FY 2013 through
April 8, 2013, and was done in accordance with OIG standard operating procedures for
CAP reviews. We also asked the facility to provide the status on the recommendations
we made in our previous CAP report (Combined Assessment Program Review of the


VA OIG Office of Healthcare Inspections                                                          1
                                          CAP Review of the VA Manila Outpatient Clinic, Manila, PI


VA Manila Outpatient Clinic, Manila, Philippines, Report                   No.   09-00858-113,
April 21, 2009). We made a repeat recommendation in QM.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
47 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                         Reported Accomplishments

Improved Pharmacy Work Processes
From FY 2009 to FY 2013, the facility experienced a 15 percent increase in the number
of prescriptions processed. In March 2013, the facility began automating prescription
processing and redesigning the pharmacy area, which has resulted in improved
timeliness of prescription processing. Prior to automation, the average number of days
to process and mail a prescription was 11 days. Since implementing automation, the
average number of days to process and mail a prescription has decreased to 1 day.

Beneficiary Travel
In August 2012, facility managers noted an increase in travel claims backlog. Additional
staff were trained to support travel claims processing, and a beneficiary travel software
package was applied. In addition, a new policy was implemented and a new template
was initiated to facilitate communication between travel and medical staff. As of
March 25, 2013, there was no backlog, and travel claims were being processed in less
than 1 day.

New Facility
In January 2011, facility construction was completed. The new building includes the
Manila VA Regional Office and Outpatient Clinic in one location. Co-locating these
entities in the same building has improved accessibility to veterans and has resulted in
more efficient scheduling of compensation and pension examinations and more timely
completion of medical opinions and rating decisions. The compensation and pension
physicians and raters meet each month to discuss and refine policies and procedures to
continually improve services to veterans.




VA OIG Office of Healthcare Inspections                                                          2
                                                     CAP Review of the VA Manila Outpatient Clinic, Manila, PI



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility complied with selected
requirements within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NC needed improvement. Any items that did not apply to this
facility are marked NA.

 NC                   Areas Reviewed                                         Findings
       There was a senior-level committee/group
       responsible for QM/performance
       improvement, and it included the required
       members.
 NA    There was evidence that Inpatient Evaluation
       Center data was discussed by senior
       managers.
       Corrective actions from the protected peer
       review process were reported to the Peer
       Review Committee.
 NA    Local policy for the use of observation beds
       complied with selected requirements.
 NA    Data regarding appropriateness of
       observation bed use was gathered, and
       conversions to acute admissions were less
       than 30 percent, or the facility had reassessed
       observation criteria and proper utilization.
 NA    Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
 NA    Appropriate processes were in place to
       prevent incidents of surgical items being
       retained in a patient following surgery.
       The cardiopulmonary resuscitation review
       policy and processes complied with
       requirements for reviews of episodes of care
       where resuscitation was attempted.
       There was an EHR quality review committee,
       and the review process complied with
       selected requirements.
 X     The EHR copy and paste function was               Twelve months of Medical Executive Board
       monitored.                                        meeting minutes reviewed:
                                                          There was no evidence of monitoring of the
                                                           copy and paste function.




VA OIG Office of Healthcare Inspections                                                                     3
                                                  CAP Review of the VA Manila Outpatient Clinic, Manila, PI


 NC             Areas Reviewed (continued)                                Findings
       Appropriate quality control processes were in
       place for non-VA care documents, and the
       documents were scanned into EHRs.
 NA    Use and review of blood/transfusions
       complied with selected requirements.
 NA    CLC minimum data set forms were transmitted
       to the data center monthly.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       There was evidence at the senior leadership
       level that QM, patient safety, and systems
       redesign were integrated.
       Overall, there was evidence that senior
       managers were involved in performance
       improvement over the past 12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
 X     The facility complied with any additional        During the period December 2011 through
       elements required by VHA or local policy.         November 2012, the Peer Review Committee
                                                         met only once while VHA policy requires that
                                                         Peer Review Committees meet at least
                                                         quarterly. This was a repeat finding.

Recommendations

1.    We recommended that the facility initiate monitoring of the copy and paste function.

2. We recommended that the Peer Review Committee meets at least quarterly or that a
notation be made if there are no cases to discuss for the quarter.




VA OIG Office of Healthcare Inspections                                                                  4
                                                       CAP Review of the VA Manila Outpatient Clinic, Manila, PI


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements.2

We inspected all clinical areas. Additionally, we reviewed relevant documents and conversed
with key employees and managers. The table below shows the areas reviewed for this topic.
The areas marked as NC needed improvement. Any items that did not apply to this facility are
marked NA.

 NC                    Areas Reviewed                                         Findings
  X    EOC Committee minutes reflected sufficient         Twelve months of EOC Committee meeting
       detail regarding identified deficiencies,          minutes reviewed:
       corrective actions taken, and tracking of           Minutes did not reflect that actions were
       corrective actions to closure.                       consistently tracked to closure.
 X     An infection prevention risk assessment was         An infection prevention risk assessment was
       conducted, and actions were implemented to           not conducted.
       address high-risk areas.
 X     Infection Prevention/Control Committee             Twelve months of Infection Prevention/Control
       minutes documented discussion of identified        Committee meeting minutes reviewed:
       problem areas and follow-up on implemented          Minutes did not reflect that actions were
       actions and included analysis of surveillance        consistently tracked to closure.
       activities and data.
 X     Fire safety requirements were met.                  Monthly fire extinguisher checks were not
                                                            documented.
       Environmental safety requirements were met.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Sensitive patient information was protected,
       and patient privacy requirements were met.
 X     Laboratory specimens were transported               There was no process in place to ensure
       securely to prevent unauthorized access.             specimens were transported to community
                                                            laboratories in a secure manner.
       Panic alarms/panic buttons were tested, and
       testing was documented.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.

Recommendations

3. We recommended that processes be strengthened to ensure that EOC and Infection
Prevention/Control Committee minutes reflect that actions taken in response to identified
deficiencies are tracked to closure.

4. We recommended that processes be strengthened to ensure that infection prevention risk
assessments are conducted.



VA OIG Office of Healthcare Inspections                                                                       5
                                           CAP Review of the VA Manila Outpatient Clinic, Manila, PI


5. We recommended that processes be strengthened to ensure that fire extinguisher
inspections are conducted monthly and documented.

6. We recommended that a process be implemented to ensure that laboratory specimens are
transported in a secure manner.




VA OIG Office of Healthcare Inspections                                                           6
                                                    CAP Review of the VA Manila Outpatient Clinic, Manila, PI


Medication Management – CS Inspections
The purpose of this review was to determine whether the facility complied with requirements
related to CS security and inspections.3

We reviewed relevant documents and conversed with key employees. We also reviewed the
training files of the CS Coordinator and three CS inspectors and inspection documentation from
the outpatient pharmacy. The table below shows the areas reviewed for this topic. The area
marked as NC needed improvement. Any items that did not apply to this facility are marked NA.

 NC                     Areas Reviewed                                      Findings
       Facility policy was consistent with VHA
       requirements.
 NA    VA police conducted annual physical security
       surveys of the pharmacy/pharmacies, and any
       identified deficiencies were corrected.
 NA    Instructions for inspecting automated
       dispensing machines were documented,
       included all required elements, and were
       followed.
       Monthly CS inspection findings summaries
       and quarterly trend reports were provided to
       the facility Director.
       CS Coordinator position description(s) or
       functional statement(s) included duties, and
       CS Coordinator(s) completed required
       certification and were free from conflicts of
       interest.
       CS inspectors were appointed in writing,
       completed required certification and training,
       and were free from conflicts of interest.
 NA    Non-pharmacy areas with CS were inspected
       in accordance with VHA requirements, and
       inspections included all required elements.
 X     Pharmacy CS inspections were conducted in        Six months of pharmacy CS inspection
       accordance with VHA requirements and             documentation reviewed:
       included all required elements.                   CS inspectors did not verify hard copy
                                                           prescriptions for 10 percent of the schedule II
                                                           drugs dispensed in the outpatient pharmacy.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

7. We recommended that processes be strengthened to ensure that CS inspectors verify hard
copy prescriptions for 10 percent of the schedule II drugs dispensed in the outpatient pharmacy
and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                      7
                                                   CAP Review of the VA Manila Outpatient Clinic, Manila, PI


Continuity of Care
The purpose of this review was to evaluate whether information from patients’ community
hospitalizations at VA expense was available to facility providers.4 Such information is essential
to coordination of care and optimal patient outcomes.

We reviewed relevant documents and 12 EHRs of patients who had been hospitalized during
calendar year 2012 in the local community at VA expense, and we conversed with key
employees. The table below shows the areas reviewed for this topic. Any items that did not
apply to this facility are marked NA. The facility generally met requirements. We made no
recommendations.

 NC                   Areas Reviewed                                       Findings
       Clinical information was available to the
       primary care team for the clinic visit
       subsequent to the hospitalization.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                   8
                                                      CAP Review of the VA Manila Outpatient Clinic, Manila, PI




Emergency Management
The purpose of this review was to determine whether the facility complied with requirements for
addressing how medical and mental health emergencies are handled.5

We reviewed relevant documents and conversed with key employees. The table below shows
the areas reviewed for this topic. Any items that did not apply to this apply to this facility are
marked NA. The facility generally met requirements. We made no recommendations.

 NC                    Areas Reviewed                                         Findings
       There was a local medical emergency
       management plan, and staff were able to
       articulate the procedural steps of the plan.
       There was a local mental health emergency
       management plan, and staff were able to
       articulate the procedural steps of the plan.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                      9
                                                   CAP Review of the VA Manila Outpatient Clinic, Manila, PI


Suicide Prevention
The purpose of this review was to determine whether the facility complied with selected
requirements related to suicide prevention.6

We reviewed relevant documents and five EHRs of patients at high risk for suicide, and we
conversed with key employees. The table below shows the areas reviewed for this topic. The
area marked as NC needed improvement. Any items that did not apply to this facility are
marked NA.

 NC                   Areas Reviewed                                       Findings
      Patients had documented safety plans.
      Patients and/or their families participated in
      plan development
      Safety plans contained all required elements
 X    There was documented evidence that patients       Two patients’ EHRs did not contain
      and/or their families received a copy of the       documentation that the patients and/or their
      plan.                                              families received a copy of the plan.
      Patient record flags were placed before safety
      plans were developed.
      The facility complied with any additional
      elements required by VHA or local policy.

Recommendation

8. We recommended that processes be strengthened to ensure that patients at high risk for
suicide and/or their families receive a copy of the safety plan.




VA OIG Office of Healthcare Inspections                                                                  10
                                                      CAP Review of the VA Manila Outpatient Clinic, Manila, PI


WH
The purpose of the review was to determine whether the facility adequately managed WH care
services not offered at the facility.7 The facility is a foreign medical facility and offers WH care
services only for service-connected conditions on a fee basis.

We reviewed relevant documents and the EHRs of 30 women veterans, and we conversed with
key employees. The table below shows the areas reviewed for this topic. Any items that did not
apply to this facility are marked NA. The facility generally met requirements. We made no
recommendations.

 NC                    Areas Reviewed                                         Findings
       Cervical cancer screening results were
       documented in patient EHRs.
 NA    The ordering VHA provider or surrogate was
       notified of results within the required
       timeframe.
 NA    Patients were notified of results within the
       required timeframe.
 NA    The facility had an appointed WH liaison.
 NA    There was evidence that the facility had
       processes in place to ensure that WH care
       needs were addressed.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                     11
                                                  CAP Review of the VA Manila Outpatient Clinic, Manila, PI




Vaccinations
The purpose of this review was to determine whether the facility complied with selected
requirements related to administration of vaccinations.8

We reviewed relevant documents and the EHRs of 60 patients (30 who should have received
tetanus vaccinations and 30 who should have received pneumococcal vaccinations), and we
conversed with key employees. The table below shows the areas reviewed for this topic. The
area marked as NC needed improvement. Any items that did not apply to this facility are
marked NA.

 NC                   Areas Reviewed                                     Findings
       Staff screened patients for the tetanus         Four (13 percent) of the patients for whom it
       vaccination and administered the vaccination     was indicated did not receive tetanus
       when indicated.                                  vaccinations.
       Staff screened patients for the pneumococcal
       vaccination and administered the vaccination
       when indicated.
       Staff documented all required vaccine
       administration elements.
       Managers developed a prioritization plan in
       the event of a vaccine shortage.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

9. We recommended that processes be strengthened to ensure that clinicians administer
tetanus vaccinations when indicated.




VA OIG Office of Healthcare Inspections                                                                 12
                                                       CAP Review of the VA Manila Outpatient Clinic, Manila, PI


Diabetic Foot Care
The purpose of this review was to evaluate compliance with selected requirements and clinical
practice guidelines for diabetic foot care.9

We reviewed relevant documents and 28 EHRs of patients with diabetes and no lower limb
amputations, and we conversed with key employees. The table below shows the areas
reviewed for this topic. The areas marked as NC needed improvement. Any items that did not
apply to this facility are marked NA.

 NC                    Areas Reviewed                                         Findings
  X    The facility developed screening and referral       The facility had not developed a policy related
       guidelines for at-risk patients.                     to screening and referral guidelines for at-risk
                                                            patients.
       Clinicians documented annual foot care
       education for diabetic patients.
 X     Clinicians documented annual foot screening         None of the EHRs contained documentation
       assessments with risk level scores.                  of annual risk assessments with risk level
                                                            scores.
 X     Patients at moderate or high risk received          EHRs for three patients with documented
       more frequent foot exams, therapeutic                abnormal foot exams did not indicate that the
       footwear, and/or orthotics.                          patients’ feet were examined at each routine
                                                            primary care visit.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

10. We recommended that the facility develop and implement a policy related to screening and
referral for at-risk diabetic patients.

11. We recommended that processes be strengthened to ensure that diabetic patients receive
annual risk assessments with risk level scores and that the assessments are documented in the
EHRs.

12. We recommended that processes be strengthened to ensure that diabetic patients at
moderate or high risk receive foot exams at each routine primary care visit.




VA OIG Office of Healthcare Inspections                                                                      13
                                                        CAP Review of the VA Manila Outpatient Clinic, Manila, PI


Management of Test Results
The purpose of this review was to evaluate whether the facility complied with selected
requirements for managing test results.10

We reviewed relevant documents and 30 EHRs of patients who had critical laboratory or
abnormal radiology results in FY 2012. In addition, we reviewed 30 EHRs of patients who had
normal laboratory or radiology test results. We also conversed with key employees. The table
below shows the areas reviewed for this topic. The area marked as NC needed improvement.
Any items that did not apply to this facility are marked NA.

 NC                   Areas Reviewed                                            Findings
       The facility had a policy addressing the
       management of critical test results.
       Providers were notified of abnormal test
       results.
 X     Patients were notified of abnormal test              Six (20 percent) EHRs had no documented
       results.                                              evidence of patient notification.
       Follow-up actions were taken in response to
       critical/abnormal test results.
       Patients were notified of normal test results.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

13. We recommended that processes be strengthened to ensure that patients are consistently
notified of critical/abnormal test results and that notification is documented in the EHRs.




VA OIG Office of Healthcare Inspections                                                                       14
                                                     CAP Review of the VA Manila Outpatient Clinic, Manila, PI


C&P
The purpose of the review was to evaluate compliance with selected requirements for C&P.11

We reviewed relevant documents and 11 C&P folders and profiles, and we conversed with key
employees. The table below shows the areas reviewed for this topic. Any items that did not
apply to this facility are marked NA. The facility generally met requirements. We made no
recommendations.

NC                    Areas Reviewed                                          Findings
      Licensed independent practitioners with less
      than a 2-year association with the facility (such
      as contract, fee basis, and temporary) had
      privileges appropriate for the length of the
      association.
      Privileges granted to providers were setting,
      service, and provider specific.
      Focused Professional Practice Evaluations for
      newly hired licensed independent practitioners
      were initiated and completed, and the results
      were reported to the medical staff’s Executive
      Committee.
      The determination to continue current
      privileges was based in part on results of
      Ongoing Professional Practice Evaluation
      activities.
      The facility complied with any additional
      elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                    15
                                                     CAP Review of the VA Manila Outpatient Clinic, Manila, PI


Management of Workplace Violence
The purpose of this review was to determine the extent to which VHA facilities managed violent
incidents.12

We reviewed relevant documents and Reports of Contact from 10 disruptive patient incidents
that occurred in FY 2012, and we conversed with key employees. The table below shows the
areas reviewed for this topic. The area marked as NC needed improvement. Any items that did
not apply to this facility are marked NA.

 NC                   Areas Reviewed                                         Findings
       The facility had policies on preventing and
       managing violent behavior.
       The facility had an employee training plan
       that addressed preventing and managing
       violent behavior.
 X     Selected incidents were managed                   For eight incidents, there was no evidence
       appropriately according to the facility’s          that debriefings were conducted.
       policies.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

14. We recommended that processes be strengthened to ensure that debriefings occur after
incidents of disruptive or violent behavior.




VA OIG Office of Healthcare Inspections                                                                    16
                                                      CAP Review of the VA Manila Outpatient Clinic, Manila, PI
                                                                                                  Appendix A

      Facility Profile (Manila/358) FY 2013 through March 2013a
Type of Organization                                                                      Outpatient clinic
Complexity Level                                                                          NA
Affiliated/Non-Affiliated                                                                 Non-Affiliated
Total Medical Care Budget in Millions                                                     $12.5
Number of:
    Unique Patients                                                                      4,420
    Outpatient Visits                                                                    12,894
    Unique Employeesb                                                                    32.48
Type and Number of Operating Beds:
    Hospital                                                                             0
    CLC                                                                                  0
    Mental Health                                                                        0
Average Daily Census:
    Hospital                                                                             NA
    CLC                                                                                  NA
    Mental Health                                                                        NA
Number of Community Based Outpatient Clinics                                              0
Location(s)/Station Number(s)                                                             NA
VISN Number                                                                               21




a
    All data is for FY 2013 through March 2013. 

b
    Unique employees involved in direct medical care (cost center 8200) from most recent pay period. 



VA OIG Office of Healthcare Inspections                                                                       17
                                          CAP Review of the VA Manila Outpatient Clinic, Manila, PI
                                                                                      Appendix B
                               VISN Director Comments



               Department of
               Veterans Affairs                                  Memorandum


       Date:           May 15, 2013

       From:           Director, VA Sierra Pacific Network (10N21)

       Subject:        CAP Review of the VA Manila Outpatient Clinic,
                       Manila, PI

       To:             Director, Los Angeles Office of Healthcare Inspections
                       (54LA)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. Attached is the OIG CAP action plan developed by the staff at the
          Manila Outpatient Clinic in response to a recent OIG CAP site visit.

       2. I have reviewed their plan and agree with the actions that will be
          implemented to correct the identified deficiencies.

       3. Should you have any questions about this plan, please	 contact
          Terry Sanders, Associate Quality Manager for VISN 21 at
          (707) 562-8370.


           (original signed by:)
           Sheila M. Cullen

           Attachments




VA OIG Office of Healthcare Inspections                                                         18
                                          CAP Review of the VA Manila Outpatient Clinic, Manila, PI
                                                                                      Appendix C
                      Acting Facility Director Comments



               Department of
               Veterans Affairs                                  Memorandum


       Date:           May 10, 2013

       From:           Acting Director, VA Manila Regional Office and Outpatient
                       Clinic (358/00)

       Subject:        CAP Review of the VA Manila Outpatient Clinic,
                       Manila, PI

       To:             Director, Sierra Pacific Network (10N21)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       I agree with the VA Manila Outpatient Clinic CAP review findings and
       recommendations. Attached is our improvement plan. We will follow-up
       monthly on the implementation of recommended improvement actions and
       provide the VISN with the results.

       If you have questions, you may contact Ms. Vicki Randall, Clinic Manager
       and/or Ms. Socorro Torrijos, Quality Manager, VA Manila Outpatient
       Clinic.




VA OIG Office of Healthcare Inspections                                                         19
                                          CAP Review of the VA Manila Outpatient Clinic, Manila, PI


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that the facility initiate monitoring of the copy
and paste function.

Concur

Target date for completion: July 31, 2013

Facility Response: The clinical providers will be educated about the appropriate use of
the cut and paste function by the Quality Manager. The medical record review tool for
primary and specialty care has been revised and the form now includes questions about
evaluating the copy and paste function. Medical record reviews will be conducted
monthly by the QA Physician and results reported monthly to delinquent provider staff
and quarterly to the Medical Executive Board (MEB). The procedure section of the
OPC Policy Memo 11-03 Progress Notes and Doctor’s Orders was expanded to include
how often chart reviews are conducted and to who the results of reviews are reported.

Recommendation 2. We recommended that the Peer Review Committee meets at
least quarterly or that a notation be made if there are no cases to discuss for the
quarter.

Concur

Target date for completion: April 30, 2013

Facility Response: The peer review policy 111-29 was revised to indicate that if no
cases are identified then a memo will be generated stating such for presentation to the
MEB and will be included as an attachment to those minutes.

Recommendation 3. We recommended that processes be strengthened to ensure that
EOC and Infection Prevention/Control Committee minutes reflect that actions taken in
response to identified deficiencies are tracked to closure.

Concur

Target date for completion: July 31, 2013

Facility Response: Deficiencies identified in the EOC and ICC minutes that remain
open will be placed on a tracking log and will be followed and discussed at subsequent
meetings until closure. The minutes as well as the tracking log will identify the Manila
OPC staff who will be responsible for ensuring updates to the committees as well as


VA OIG Office of Healthcare Inspections                                                         20
                                          CAP Review of the VA Manila Outpatient Clinic, Manila, PI


working with the appropriate staff whether that staff is within VHA, VBA or the State
Department to bring the identified issue to closure. When actions on issues appear to
be stalled, they will be brought to the attention of management to assist.

Recommendation 4. We recommended that processes be strengthened to ensure that
infection prevention risk assessments are conducted.

Concur

Target date for completion: June 30, 2013

Facility Response: Infection Control Risk Assessment tool was developed and
parameters for scoring have been identified. First assessment will be conducted
June 3, 2013 and results will be reported by ICC chair to the Infection Control
Committee. A summary report of the results of this assessment will be presented to the
Joint Executive Board (JEB). The high risk areas will translate into a surveillance
program for the clinic and become a recurring report to the Infection Control Committee.

Recommendation 5. We recommended that processes be strengthened to ensure that
fire extinguisher inspections are conducted monthly and documented.

Concur

Target date for completion: June 17, 2013

Facility Response: The EOC team will inspect Fire Extinguishers during their weekly
rounds to ensure that all extinguishers have a documented inspection monthly. VHA’s
Biomedical engineer who is a member of the EOC team will be trained to inspect fire
extinguishers in the event the State Department is unable to comply with timeliness
requirements. Fire extinguishers inspections will be a part of the EOC report that is
submitted to the safety committee.

Recommendation 6. We recommended that a process be implemented to ensure that
laboratory specimens are transported in a secure manner.

Concur

Target date for completion: April 30, 2013

Facility Response: Revisions were made to the Specimen Collection. Specimen
Transportation SOP, to include a process for securing biohazards that are transported.
The process involves a security seal being placed on the transport bag (security tape
has been procured) and should only be broken by the receiving staff at the reference
laboratory. The reference laboratory staff will be required to sign on the receiving
document that specimen integrity has not been compromised as evidenced by an intact
security seal and have been instructed to contact the Manila laboratory if they identify
that the integrity was breeched prior to receipt. Monitoring will be accomplished by



VA OIG Office of Healthcare Inspections                                                         21
                                          CAP Review of the VA Manila Outpatient Clinic, Manila, PI


checking all send-outs before the specimen bag is taken to the reference laboratory and
compliance will be recorded.

Recommendation 7. We recommended that processes be strengthened to ensure that
CS inspectors verify hard copy prescriptions for 10 percent of the schedule II drugs
dispensed in the outpatient pharmacy and that compliance be monitored.

Concur

Target date for completion: April 30, 2013

Facility Response: The Controlled Substance Inspection Checklist was revised to
include verification on inspection of hardcopy scripts for controlled substances
dispensed. Staff has been educated on the process and procedures. The form was
implemented April 2013 and will be tracked and monitored by the Pharmacy and
Therapeutics Committee and reported to the Medical Executive Board.

Recommendation 8. We recommended that processes be strengthened to ensure that
patients at high risk for suicide and/or their families receive a copy of the safety plan.

Concur

Target date for completion: August 30, 2013

Facility Response: Staff were re-educated on the need to provide suicide safety plans
to Veterans who are identified as high risk for suicide during their visit with Mental
Health Providers. Documentation on the template will include understanding and
agreement by the patient to the plan. Monitoring for compliance will be accomplished
monthly by the Suicide Prevention Coordinator and results reported to the Mental
Health providers and to the Medical Executive Board.

Recommendation 9. We recommended that processes be strengthened to ensure that
clinicians administer tetanus vaccinations when indicated.

Concur

Target date for completion: April 30, 2013

Facility Response: Staff were re-educated on the indications for administering tetanus
vaccine and the option “Patient does not remember” was taken out of the reminder
since selecting this was considered as non-compliance to the reminder and should not
be a part of the consideration as to whether a vaccination is necessary. Monitoring of
the tetanus reminder will be included in the Performance measure dashboard which will
be reported monthly to the medical staff and quarterly to the Medical Executive Board.




VA OIG Office of Healthcare Inspections                                                         22
                                          CAP Review of the VA Manila Outpatient Clinic, Manila, PI


Recommendation 10. We recommended that the facility develop and implement a
policy related to screening and referral for at-risk diabetic patients.

Concur

Target date for completion: July 31, 2013

Facility Response: A policy will be developed by the Chief Medical Officer of the
Manila OPC that will delineate the process for identifying at-risk diabetic patients and
the process for screening, treatment and referral as appropriate. Staff will be educated
on the policy once it has been approved.

Recommendation 11. We recommended that processes be strengthened to ensure
that diabetic patients receive annual risk assessments with risk level scores and that the
assessments are documented in the EHRs.

Concur

Target date for completion: July 31, 2013

Facility Response: A clinical reminder is being developed that will identify risk level
scores and provide guidance on appropriate actions that will be documented in the
EHR. The clinical providers will be educated on the clinical reminder. Monitoring of the
use of the clinical reminder will be accomplished by VISTA reports and the results will
be reported to the Medical staff on a monthly basis. This element will also become a
part of the performance measure dashboard which is reviewed and monitored by the
Medical Executive Board.

Recommendation 12. We recommended that processes be strengthened to ensure
that diabetic patients at moderate or high risk receive foot exams at each routine
primary care visit.

Concur

Target date for completion: July 31, 2013

Facility Response: The clinical reminder being developed will identify Veterans who
are at low, moderate or high risk. For Veterans identified as low risk, the reminder will
be temporarily resolved for 9 months, moderate risk resolved for 6 months and for high
risk resolved for 3 months, when appropriate interventions are taken. Primary Care
Providers will be educated on the reminder and will be expected to check the CPRS
cover sheet to determine if the reminder is due is every visit. If the reminder is due, the
physician should process the reminder by ordering the appropriate interventions.
Monitoring will be accomplished through clinical reminders reports and included in the
Performance measure dashboard which is reported monthly to the medical staff and
quarterly to the Medical Executive Board.




VA OIG Office of Healthcare Inspections                                                         23
                                          CAP Review of the VA Manila Outpatient Clinic, Manila, PI


Recommendation 13. We recommended that processes be strengthened to ensure
that patients are consistently notified of critical/abnormal test results and that notification
is documented in the EHRs.

Concur

Target date for completion: July 31, 2013

Facility Response: Clinical providers will be re-educated with regard to procedures to
report and document test results that show significant abnormalities and require
immediate attention. OPC Policy Memo 11-08 Ordering and Reporting of Test Results
will be revised to specify procedures for patient notification of critical/abnormal test
results. Chart reviews will be conducted monthly and include review of patient
notification with results being reported monthly to the medical staff and to the Medical
Executive Board

Recommendation 14. We recommended that processes be strengthened to ensure
that debriefings occur after incidents of disruptive or violent behavior.

Concur

Target date for completion: July 31, 2013

Facility Response: Debriefings will be conducted after every disruptive behavior
incident and the debriefing form completed. Employees witnessing or subjected to
disruptive behavior will be debriefed by a mental health provider within 24 hours of the
incident. The employee will be scheduled to any of the mental health clinics for the
debriefing session and the need for follow-up visits will be determined by the provider.
Incidents of disruptive behavior are monitored by the Patient Advocate who reports
these incidents to the Disruptive Behavior Committee during their quarterly meetings.
Circular 00-13-08 Workplace Violence Prevention Program will be revised to include this
procedure.




VA OIG Office of Healthcare Inspections                                                         24
                                          CAP Review of the VA Manila Outpatient Clinic, Manila, PI
                                                                                      Appendix D


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Daisy Arugay, MT, Team Leader
Contributors            Julie Watrous, RN, MS
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Keyla Gammarano, RN, MHA
                        Jeff Joppie, BS
                        Yoonhee Kim, Pharm.D
                        Jackie Melendez, MPA
                        Simonette Reyes, RN
                        Victor Rhee, MHS
                        Kathleen Shimoda, RN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                         25
                                          CAP Review of the VA Manila Outpatient Clinic, Manila, PI
                                                                                      Appendix E


                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, Sierra Pacific Network (10N21)
Director, Manila Regional Office and Outpatient Clinic (358/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                         26
                                                    CAP Review of the VA Manila Outpatient Clinic, Manila, PI
                                                                                                Appendix F

                                                 Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
	 VHA Directive 2008-007, Resident Assessment Instrument (RAI) Minimum Data Set (MDS), February 4, 2008.
2
    References used for this topic included:
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 Various requirements of The Joint Commission, the Centers for Disease Control and Prevention, the Occupational
    Safety and Health Administration, the National Fire Protection Association, the American National Standards
    Institute, the Association for the Advancement of Medical Instrumentation, and the International Association of
    Healthcare Central Service Material Management.
3
   References used for this topic included:
	 VHA Handbook 1108.01, Controlled Substances (Pharmacy Stock), November 16, 2010. 
	 VHA Handbook 1108.02, Inspection of Controlled Substances, March 31, 2010.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA, “Clarification of Procedures for Reporting Controlled Substance Medication Loss as Found in VHA
    Handbook 1108.01,” Information Letter 10-2011-004, April 12, 2011.
	 VA Handbook 0730, Security and Law Enforcement, August 11, 2000.
	 VA Handbook 0730/2, Security and Law Enforcement, May 27, 2010.
4
   The reference used for this topic was:
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012. 
5
   The reference used for this topic was:
	 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
6
   The reference used for this topic was:
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
    September 11, 2008. 
7
   The reference used for this topic was:
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010. 
8
   The references used for this topic were:
	 Centers for Disease Control and Prevention guidelines and VHA recommendations.
9
   The reference used for this topic was:
	 VA/Department of Defense, Clinical Practice Guideline for the Management of Diabetes Mellitus, August 2010.
10
    The reference used for this topic was:
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
11
    The reference used for this topic was:
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
12
    The reference used for this topic was:
	 VHA Directive 2012-026, Sexual Assaults and Other Defined Public Safety Incidents in Veterans Health
    Administration (VHA) Facilities, September 27, 2012. 




VA OIG Office of Healthcare Inspections                                                                          27
